App. 1
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
-----------------------------------------------------------------------

No. 18-10672
-----------------------------------------------------------------------

FERNANDO JUAREZ,
Petitioner-Appellant
v.
LORIE DAVIS, DIRECTOR, TEXAS
DEPARTMENT OF CRIMINAL JUSTICE,
CORRECTIONAL INSTITUTIONS DIVISION,
Respondent-Appellee
-----------------------------------------------------------------------

Appeals from the United States District Court
for the Northern District of Texas
-----------------------------------------------------------------------

(Filed Jun. 4, 2019)
ORDER:
Fernando Juarez, Texas prisoner # 75886, seeks a
certificate of appealability (COA) to appeal the district
court’s denial of his 28 U.S.C. § 2254 petition challenging his reformed sentence of life in prison with the possibility of parole conviction for capital murder. Juarez
argues that his sentence violates the Eighth Amendment because he did not intend to kill the victim, violates the Ex Post Facto Clause, and violates the Eighth

App. 2
and Fourteenth Amendments because it is a de facto
life sentence.
To obtain a COA, Juarez must make a substantial
showing of the denial of a constitutional right. See 28
U.S.C. § 2253(c)(2). “A petitioner satisfies this standard
by demonstrating that jurists of reason could disagree
with the district court’s resolution of his constitutional
claims or that jurists could conclude the issues presented are adequate to deserve encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 327
(2003).
Juarez has not made the requisite showing. Accordingly, his motion for a COA is DENIED.
/s/ James E. Graves, Jr.
JAMES E. GRAVES, JR.
UNITED STATES
CIRCUIT JUDGE

App. 3
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
FERNANDO JUAREZ,
Petitioner,
VS.
LORIE DAVIS, Director,
Texas Department of
Criminal Justice, Correctional
Institutions Division,
Respondent.

)
) CIVIL ACTION NO.
)
) 3:16-CV-0843-G (BH)
)
)
)
)
)
)

ORDER ACCEPTING FINDINGS AND
RECOMMENDATION OF THE UNITED
STATES MAGISTRATE JUDGE
(Filed May 10, 2018)
After reviewing all relevant matters of record in
this case, including the findings, conclusions, and recommendation of the United States Magistrate Judge
and any objections thereto, in accordance with 28
U.S.C. § 636(b)(1), the court is of the opinion that the
findings and conclusions of the magistrate judge are
correct and they are accepted as the findings and conclusions of the court. For the reasons stated in the findings, conclusions, and recommendation of the United
States Magistrate Judge, the petition for habeas corpus filed pursuant to 28 U.S.C. § 2254 is DENIED with
prejudice.

App. 4
In accordance with FED. R. APP. P. 22(b) and 28
U.S.C. § 2253(c) and after considering the record in this
case and the recommendation of the magistrate judge,
the petitioner is DENIED a certificate of appealability.
The court adopts and incorporates by reference the
magistrate judge’s findings, conclusions, and recommendation filed in this case in support of its finding
that the petitioner has failed to show (1) that reasonable jurists would find this court’s “assessment of the
constitutional claims debatable or wrong,” or (2) that
reasonable jurists would find “it debatable whether the
petition states a valid claim of the denial of a constitutional right” and “debatable whether [this Court] was
correct in its procedural ruling.” Slack v. McDaniel, 529
U.S. 473, 484 (2000).*

* Rule 11 of the Rules Governing §§ 2254 and 2255 Cases, as
amended effective on December 1, 2009, reads as follows:
(a) Certificate of Appealability. The district court
must issue or deny a certificate of appealability when
it enters a final order adverse to the applicant. Before
entering the final order, the court may direct the parties to submit arguments on whether a certificate
should issue. If the court issues a certificate, the court
must state the specific issue or issues that satisfy the
showing required by 28 U.S.C. § 2253(c)(2). If the court
denies a certificate, the parties may not appeal the denial
but may seek a certificate from the court of appeals under
Federal Rule of Appellate Procedure 22. A motion to reconsider a denial does not extend the time to appeal.
(b) Time to Appeal. Federal Rule of Appellate Procedure 4(a) governs the time to appeal an order entered
under these rules. A timely notice of appeal must be
filed even if the district court issues a certificate of appealability.

App. 5
In the event that the petitioner files a notice of appeal, he must pay the $505.00 appellate filing fee or
submit a motion to proceed in forma pauperis that is
accompanied by a properly signed certificate of inmate
trust account.
SO ORDERED.
May 10, 2018.
/s/ A. Joe Fish
A. JOE FISH
Senior United States
District Judge

App. 6
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
FERNANDO JUAREZ,
Petitioner,
VS.
LORIE DAVIS, Director,
Texas Department of
Criminal Justice, Correctional
Institutions Division,
Respondent.

)
)
)
)
)
)
)
)
)
)

CIVIL ACTION NO.
3:16-CV-0843-G (BH)

JUDGMENT
(Filed May 10, 2018)
This action came on for consideration by the court,
and the issues having been duly considered and a decision duly rendered,
It is ORDERED, ADJUDGED and DECREED
that:
1. The petition for habeas corpus relief pursuant
to 28 U.S.C. § 2254 is DENIED with prejudice.

App. 7
2. The clerk shall transmit a true copy of this
judgment and the order accepting the findings and recommendation of the United States Magistrate Judge
to all parties.
May 10, 2018.
/s/ A. Joe Fish
A. JOE FISH
Senior United States
District Judge

App. 8
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
FERNANDO JUAREZ,
Petitioner,

)
)
)
vs.
) No. 3:16-CV-0843-G (BH)
LORIE DAVIS,1 Director, )
Texas Department of
) Referred to
Criminal Justice,
) U.S. Magistrate Judge
Correctional Institutions )
Division,
)
Respondent.
)
FINDINGS, CONCLUSIONS,
AND RECOMMENDATION
(Filed Mar. 28, 2018)
By Special Order 3-251, this habeas case has been
referred for findings, conclusions, and recommendation. Based on the relevant findings and applicable law,
the petition for writ of habeas corpus under 28 U.S.C.
§ 2254 should be DENIED with prejudice.

1

Lorie Davis succeeded William Stephens as Director of the
Correctional Institutions Division of the Texas Department of
Criminal Justice. Under Rule 25(d) of the Federal Rules of Civil
Procedure, she “is automatically substituted as a party.”

App. 9
I.

BACKGROUND

Fernando Juarez (Petitioner), an inmate currently
incarcerated in the Texas Department of Criminal Justice-Correctional Institutions Division (TDCJ-CID),
filed a petition for writ of habeas corpus under 28
U.S.C. § 2254. He challenges his conviction for capital
murder in Cause No. 34946CR in the 40th Judicial District Court of Ellis County, Texas. The respondent is
Lone Davis, Director of the Texas Department of Criminal Justice (TDCJ), Correctional Institutions Division
(Respondent).
A. Trial
After the State indicted Petitioner for capital murder on July 8, 2010, (see doc. 12-8 at 11),2 he pleaded
not guilty and was tried before a jury, on May 16-27,
2011, with co-defendants Eric Maldonado and Ruben
Hernandez.
The victim operated a store in Ennis, Texas. Petitioner, Eric Maldonado, and Isaiah Gonzalez planned
to rob the victim with the help of Ruben Hernandez, a
store employee. On April 18, 2010, Hernandez sent text
messages to Petitioner informing him that the victim
was leaving to take a deposit to the bank and how
much money was in the deposit. Petitioner, Maldonado,
and Gonzalez were waiting in a vehicle driven by Petitioner for the victim to leave; they planned to rob him
2

Page citations refer to the CM/ECF system page number at
the top of each page rather than the page numbers at the bottom
of each filing.

App. 10
on his way to the bank, but not near the store. The victim left the store. It appeared to Gonzalez that Petitioner and Maldonado were familiar with the victim’s
route and knew the bank where he was going to make
the deposit, because they had been planning the robbery for a while. Maldonado was armed with a .380 caliber pistol, and Gonzalez was armed with a Cobray
Model M–119 millimeter firearm (“Mac–11”).
Petitioner pulled the vehicle in front of the victim
to stop him. Maldonado and Gonzalez got out and approached the victim’s minivan. Before they got out of
the vehicle, Maldonado told Gonzalez to empty his clip
if anyone saw them. Gonzalez pointed the Mac–11 at
the victim. The victim was attempting to unbuckle his
seat belt when Maldonado suddenly shot him. Gonzalez was in shock and did not unlock the passenger door
of the van for Maldonado. Maldonado ran back to the
vehicle driven by Petitioner and got in, and Petitioner
drove away. Gonzalez got in the minivan and followed
Petitioner. Shortly thereafter, Maldonado got out of Petitioner’s vehicle and got in the minivan. They stopped
at a business where Maldonado used to work. Gonzalez
dragged the victim’s body into the woods and left it,
and the minivan was abandoned at a different location.
Maldonado removed two envelopes with money from
the minivan, Gonzalez took a third envelope of money,
and then Maldonado burned the minivan. The masks,
rubber gloves, and the t-shirt Maldonado was wearing
were thrown out of the window on the same road where
the minivan was abandoned.

App. 11
Maldonado gave Petitioner and Gonzalez some of
the money. All three then used cocaine purchased by
Maldonado after the offense. Maldonado and Petitioner went to a casino in Oklahoma shortly thereafter.
The day after the victim’s death, Petitioner, Maldonado, Gonzalez, and Maldonado’s uncle went to purchase a new cell phone for Petitioner, because he had
intentionally broken his after the robbery and murder.
They then went to the uncle’s apartment. The uncle’s
neighbor testified that Petitioner and Maldonado said
that Maldonado had shot the victim. Petitioner said
that it was a robbery gone bad, and that he did not intend for anyone to be shot, although the neighbor believed that Petitioner and Maldonado were bragging
about it. Gonzalez was bragging about the incident as
well. Petitioner and Maldonado indicated that the robbery was planned by an unnamed fourth person who
worked at the store. Maldonado had approximately
$4,000 and Gonzales had approximately $1,000. They
were later apprehended in a vehicle that they borrowed from the uncle.
A search of Petitioner’s bedroom in his parents’
home led to the discovery of two boxes of nine millimeter ammunition, and two magazines that appeared to
fit a Mac–11. A search of Maldonado’s mother’s home
resulted in the discovery of the .380 caliber pistol later
determined to be the weapon used to kill the victim, a
Mac–11, and a shotgun. See Juarez v. State, No. 10–11–
00213–CR, 2013 WL 3848385 at *2-4 (Tex. App. – Waco
July 25, 2013).

App. 12
Petitioner, who was seventeen years old at the
time of the offense, was convicted of capital murder
and sentenced to life imprisonment without the possibility of parole. (See docs. 12-9 at 55, 12-51 at 13.)
B. Post-trial Proceedings
On appeal, Petitioner contended that because he
was seventeen years old at the time of the offense, the
life sentence without the possibility of parole was unconstitutional under Miller v. Alabama, 567 U.S. 460
(2012) (holding that a sentence of mandatory life imprisonment without the possibility of life without parole for a person under eighteen years old at the time
of the crime is unconstitutional). The Court of Appeals
held that the issue was not preserved for appellate review and affirmed the judgment. Juarez v. State, 2013
WL 3848385 at *8-9. The Texas Court of Criminal
Appeals held that the Court of Appeals erred and remanded the case to that court. Juarez v. State, No. PD1049-13, 2014 WL 4639776 (Tex. Crim. App. July 23,
2014). On remand, the Court of Appeals reformed the
sentence to life imprisonment with the possibility of
parole. Juarez v. State, No. 10–11–00213–CR, 2014 WL
5093977 (Tex. App. – Waco, Oct. 9, 2014). Petitioner’s
subsequent petition for discretionary review was refused on February 4, 2015. Juarez v. State, No. PD1393-14 (Tex. Crim. App. Feb. 4, 2015.)
Petitioner’s state habeas application was filed on
January 22, 2016. (See doc. 12-70 at 45.) On March 23,
2016, it was denied without written order. (Doc. 12-66);

App. 13
see Ex parte Juarez, WR-84,689-01 (Tex. Crim. App.
Mar. 23, 2016).
C. Substantive Claims
Petitioner’s federal habeas petition, filed by counsel on March 25, 2016, challenges his sentence on the
following grounds:
(1) Under Miller v. Alabama, Petitioner’s sentence of life imprisonment with the possibility of
parole after 40 years violates the Eighth Amendment, because Petitioner never intended to kill the
deceased;
(2) Petitioner’s sentence of life with the possibility of parole after 40 years violates the Ex Post
Facto Clause of U.S. Constitution Article I, section
10;
(3) Petitioner’s sentence of capital life with parole possibility after 40 years violates the Eighth
Amendment and Miller v. Alabama because it is a
de facto life sentence.
(See docs. 1 at 6-8, 6 at 13, 21, 28.) Respondent filed a
response on July 21, 2016. (Doc. 10.) Petitioner filed a
reply on August 20, 2016. (Doc. 11.)
II.

APPLICABLE LAW

Congress enacted the Antiterrorism and Effective
Death Penalty Act of 1996 (AEDPA), Pub. L. 104-132,
110 Stat. 1217, on April 24, 1996. Title I of the Act applies to all federal petitions for habeas corpus filed on

App. 14
or after its effective date. Lindh v. Murphy, 521 U.S.
320, 326 (1997). Because Petitioner filed his petition
after its effective date, the Act applies.
Title I of AEDPA substantially changed the way
federal courts handle habeas corpus actions. Under 28
U.S.C. § 2254(d), as amended by AEDPA, a state prisoner may not obtain relief
with respect to any claim that was adjudicated on the merits in State court proceedings
unless the adjudication of the claim—
(1) resulted in a decision that was contrary to, or involved an unreasonable application of, clearly established Federal
law, as determined by the Supreme Court
of the United States; or
(2) resulted in a decision that was based
on an unreasonable determination of the
facts in light of the evidence presented in
the State court proceeding.
“In the context of federal habeas proceedings, a resolution (or adjudication) on the merits is a term of art that
refers to whether a court’s disposition of the case was
substantive, as opposed to procedural.” Miller v. Johnson, 200 F.3d 274, 281 (5th Cir. 2000).
Section 2254(d)(1) concerns pure questions of law
and mixed questions of law and fact. Martin v. Cain,
246 F.3d 471, 475 (5th Cir. 2001). A decision is contrary
to clearly established federal law within the meaning
of § 2254(d)(1) “if the state court arrives at a conclusion
opposite to that reached by [the Supreme Court] on a

App. 15
question of law or if the state court decides a case differently than [the] Court has on a set of materially indistinguishable facts.” Williams v. Taylor, 529 U.S. 362,
412-13 (2000). As for the “unreasonable application”
standard, a writ must issue “if the state court identifies
the correct governing legal principle from [the] Court’s
decisions but unreasonably applies that principle to
the facts of the prisoner’s case.” Id. at 413; accord Penry
v. Johnson, 532 U.S. 782, 792 (2001). Likewise, a state
court unreasonably applies Supreme Court precedent
if it “unreasonably extends a legal principle from [Supreme Court] precedent to a new context where it
should not apply or unreasonably refuses to extend
that principle to a new context where it should apply.”
Williams, 529 U.S. at 407. “[A] federal habeas court
making the ‘unreasonable application’ inquiry should
ask whether the state court’s application of clearly established federal law was objectively unreasonable.”
Id. at 409; accord Penry, 532 U.S. at 793.
Section 2254(d)(2) concerns questions of fact.
Moore v. Johnson, 225 F.3d 495, 501 (5th Cir. 2000). Under § 2254(d)(2), federal courts “give deference to the
state court’s findings unless they were ‘based on an unreasonable determination of the facts in light of the evidence presented in the state court proceeding.’ ”
Chambers v. Johnson, 218 F.3d 360, 363 (5th Cir. 2000).
The resolution of factual issues by the state court is
presumptively correct and will not be disturbed unless
the state prisoner rebuts the presumption by clear and
convincing evidence. 28 U.S.C. § 2254(e)(1).

App. 16
III.

EX POST FACTO

Petitioner contends that under his reformed sentence, he will not be eligible for parole for 40 years,
andthat the application of the statute authorizing a
sentence of life with parole after 40 years was a violation of the Ex Post Facto Clause because the statute
was enacted after he committed the offense.
Under the Ex Post Facto Clause, “[t]he Constitution forbids the application of any new punitive measure to a crime already consummated, to the detriment
or material disadvantage of the wrongdoer.” Dobbert v.
Florida, 432 U.S. 282, 299 (1977). “To fall within the ex
post facto prohibition, a law must be retrospective –
that is, ‘it must apply to events occurring before its enactment’ – and it ‘must disadvantage the offender affected by it,’ by altering the definition of criminal
conduct or increasing the punishment for the crime.”
Lynce v. Mathis, 519 U.S. 433, 441 (1997).
Petitioner was originally sentenced to life without
parole under the version of Texas Penal Code
§ 12.31(a)(2) in effect in 2010, when he committed the
offense. Section 12.31(a) provided:
An individual adjudged guilty of a capital felony in a case in which the state does not seek
the death penalty shall by punished by imprisonment in the Texas Department of Criminal Justice for:
(1) life, if the individual’s cases was
transferred to the court under Section
54.02, Family Code; or

App. 17
(2)

life without parole.

See Act of June 19, 2009, 81st Leg., R. S., ch. 765, § 1,
2009 Tex. Gen. Laws 1930. Subsequently, in 2012, the
Supreme Court held that a mandatory life sentence
without parole for a juvenile (a person under 18 years
old) violates the Eighth Amendment. See Miller v. Alabama, 567 U.S. at 465, 470. Section 12.31(a) was then
amended to provide:
An individual adjudged guilty of a capital felony in a case in which the state does not seek
the death penalty shall by punished by imprisonment in the Texas Department of Criminal Justice for:
(1) life, if the individual committed the
offense when younger than 18 years of
age; or
(2) life without parole, if the individual
committed the offense when 18 years of
age or older.
See Act of July 22, 2013, 83rd Leg., 2nd C.S., ch. 2, § 1,
2013 Tex. Gen. Laws 5020. That amendment took effect
immediately, and it applied to “a criminal action pending, on appeal, or commenced on or after the effective
date of this Act [July 22, 2013], regardless of whether
the criminal action is based on an offense committed
before, on, or after that date.” See id., §§ 3, 4, 2013 Tex.
Gen. Laws at 5021.
The parole statute in effect when the offense was
committed and when Petitioner’s sentence was

App. 18
reformed, Texas Government Code § 508.145(b), provided:
An inmate serving a life sentence under Section 12.31(a)(1), Penal Code, for a capital felony is not eligible for release on parole until
the actual calendar time the inmate has
served, without consideration of good conduct
time, equals 40 calendar years.
As a result, a juvenile who receives a mandatory life
sentence for capital murder is eligible for parole after
serving 40 years.
Under Montgomery v. Louisiana, 136 S.Ct. 718
(2016), “[a] State may remedy a Miller violation by permitting juvenile homicide offenders to be considered
for parole, rather than by resentencing them.” The Supreme Court cited Wyo. Stat. Ann. § 6–10–301(c)
(2013), which is similar to the 2013 version of
§ 12.31(a) in operation with § 508.145(b), was amended
in 2013 to eliminate life sentences without parole for
juveniles and to provide that juveniles who receive life
sentences would be eligible for parole after 25 years.
Although the Supreme Court did not consider whether
application of the statute was an ex post facto violation, its opinion suggests that a state court’s application of such a retroactive statute as a remedy for a
Miller violation would not be contrary to clearly established federal law.
Petitioner’s original sentence of life imprisonment
without parole was reformed to life imprisonment, and
he is eligible for parole after serving 40 years of his

App. 19
sentence. The reformed sentence did not increase the
punishment for the crime, so there was no ex post facto
violation by the application of the 2013 version of
§ 12.31(a) in conjunction with § 508.145(b). See Skipper v. Cain, 2017 WL 6884335 at *4 (M.D. La. Nov. 6,
2017), rec. adopted, 2018 WL 343851 (M.D. La. Jan. 9,
2018) (reformation of a juvenile’s unconstitutional life
sentence without parole to a life sentence, with a parole eligibility date to be determined under a statute
that was not in effect when the offense was committed,
was not an ex post facto violation, because the reformed life sentence with parole eligibility was more
favorable than the original life sentence without parole).
Petitioner has not shown that there was an ex post
facto violation and that the state court’s rejection of
this claim was contrary to clearly established federal
law.
IV.

DE FACTO LIFE SENTENCE
WITHOUT PAROLE

Petitioner contends that a life sentence with parole eligibility after 40 years is a de facto life sentence
that violates the Eighth Amendment and Miller v. Alabama because it is unlikely that he will be released
on parole after he serves 40 years of his sentence. He
points out that the parole board considers static and
dynamic factors in deciding whether to grant parole,
but a prisoner’s age at the time of the offense is not
among those factors.

App. 20
In Graham v. Florida, 560 U.S. 48 (2010), the Supreme Court held that the Eighth Amendment “prohibits the imposition of a life without parole sentence
on a juvenile offender who did not commit homicide. A
State need not guarantee the offender eventual release, but if it imposes a sentence of life it must provide
him . . . with some realistic opportunity to obtain release before the end of that term.” Id. at 82. Although
a “State is not required to guarantee eventual freedom
to a juvenile offender convicted of a nonhomicide crime,
. . . [the State must] give [a juvenile offender] some
meaningful opportunity to obtain release based on
demonstrated maturity and rehabilitation.” Id. at 75.
The Court recognized that “[t]hose who commit truly
horrifying crimes as juveniles may turn out to be irredeemable, and thus deserving of incarceration for the
duration of their lives.” Id. “The Eighth Amendment
does not foreclose the possibility that persons convicted of nonhomicide crimes committed before adulthood will remain behind bars for life. It does prohibit
States from making the judgment at the outset that
those offenders never will be fit to reenter society.” Id.
In Virginia v. LeBlanc, 137 S.Ct. 1726 (2017), the
habeas petitioner contended that his life sentence for
a nonhomicide crime violated Graham. Virginia did
not have parole for felonies, but it provided for geriatric release that allowed prisoners who are sixty years
old and who have served at least ten years of a sentence to petition for conditional release. Id. at 1727-28.
The parole board considers the prisoner’s individual
history, conduct during incarceration, and changes in

App. 21
attitude toward himself and others. Id. at 1729. The
state court held that because the geriatric release program used standard parole factors, it satisfied the Graham requirement that a juvenile convicted of a
nonhomicide crime have a meaningful opportunity to
receive parole. Id. The Supreme Court stated that Graham did not decide whether a life sentence for a juvenile with the possibility of a geriatric release violates
the Eighth Amendment. Id. at 1728-29. For that reason, the state court’s rejection of the claim was not objectively unreasonable. Id. at 1729.
Similarly, the Supreme Court did not decide in
Miller that a life sentence for a juvenile with eligibility
for parole after serving 40 years is unconstitutional.
Because there is no clearly established law holding
that such a sentence is a de facto life sentence without
parole and is unconstitutional, Petitioner has not
shown that the state court’s rejection of this claim was
unreasonable.
V.

INTENT TO KILL

Petitioner contends that the life sentence with eligibility for parole in 40 years is unconstitutional under Graham because it is a de facto life sentence
without parole, and he did not have the intent to kill.
He asserts that the Court recognized in Graham, 560
U.S. at 69, that a defendant who does not kill, intend
to kill, or foresee that life will be taken is categorically
less-deserving of the most serious forms of punishment
than are actual murderers. Under a concurring opinion

App. 22
in Miller, 567 U.S. at 489-90 (Breyer, J., concurring), he
did not kill or intend to kill, so his crime was not a
homicide.
First, as discussed above, Petitioner has not shown
that his sentence is a de facto life sentence without parole under clearly established federal law. Second, the
concurring opinion in Miller is not clearly established
law. He has not shown that clearly established law prohibits a life sentence for a juvenile who is guilty of capital murder as a party or as a co-conspirator.
Under Texas law, a person commits capital murder
if he intentionally causes the death of an individual
while in the course of committing or attempting to
commit robbery. Tex. Penal Code § 19.03(a)(2); see Juarez, 2013 WL 3848385 at *4. A person is guilty as a
party if, “acting with intent to promote or assist the
commission of the offense, he solicits, encourages, directs, aids, or attempts to aid the other person to commit the offense.” Tex. Penal Code § 7.02(a)(2); see
Juarez, 2013 WL 3848385 at *4. A person can also be
guilty as a co-conspirator. “If, in the attempt to carry
out a conspiracy to commit one felony, another felony
is committed by one of the conspirators, all conspirators are guilty of the felony actually committed, though
having no intent to commit it, if the offense was committed in furtherance of the unlawful purpose and was
one that should have been anticipated as a result of the
carrying out of the conspiracy.” Tex. Penal Code
§ 7.02(b); see Juarez, 2013 WL 3848385 at *5.

App. 23
The Court of Appeals held that the evidence was
insufficient to support the conviction based on the following:
Maldonado and Gonzalez were both armed
with loaded weapons as they exited the vehicle [Petitioner] was driving and approached
[the victim]. Maldonado had told Gonzalez to
shoot if necessary. . . . [T]he extra magazines
and ammunition that were the same type as
the Mac–11 that Gonzalez pointed at [the victim were] later found in [Petitioner’s] closet.
After the shooting, [Petitioner] stayed with
Maldonado and Gonzalez and drove with
them as they dumped [the victim’s] body in
the woods, destroyed the van, and disposed of
other physical evidence. . . . It was not unreasonable for the jury to infer that [Petitioner]
knew that Maldonado and Gonzalez were
armed when they approached the van. It was
also not unreasonable for the jury to have determined that murder should have been anticipated.
Id. The state court reasonably determined that there
was sufficient evidence that Petitioner was guilty as a
party or co-conspirator.
Petitioner has not shown that the state court unreasonably rejected this Graham/Miller claim.
VI.

EVIDENTIARY HEARING

Upon review of the pleadings and the proceedings
held in state court as reflected in the state court

App. 24
records, an evidentiary hearing appears unnecessary.
Petitioner has not shown he is entitled to an evidentiary hearing.
VII.

RECOMMENDATION

The petition for habeas corpus relief under 28
U.S.C. § 2254 should be DENIED with prejudice.
SO RECOMMENDED this 28th day of March,
2018.
/s/ Irma Carrillo Ramirez
IRMA CARRILLO RAMIREZ
UNITED STATES
MAGISTRATE JUDGE

